No. 20-443

IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
vs.
DZHOKHAR A. TSARNAEV,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONER

KENT S. SCHEIDEGGER
Counsel of Record
Criminal Justice Legal Fdn.
2131 L Street
Sacramento, CA 95816
(916) 446-0345
briefs@cjlf.org
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

QUESTIONS PRESENTED
1. Whether the court of appeals erred in concluding
that respondent’s capital sentences must be vacated on
the ground that the district court, during its 21-day voir
dire, did not ask each prospective juror for a specific
accounting of the pretrial media coverage that he or she
had read, heard, or seen about respondent’s case.
2. Whether the district court committed reversible
error at the penalty phase of respondent’s trial by
excluding evidence that respondent’s older brother was
allegedly involved in different crimes two years before
the offenses for which respondent was convicted.

(i)

TABLE OF CONTENTS
Questions presented. . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Table of authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . v
Interest of amicus curiae. . . . . . . . . . . . . . . . . . . . . . . 1
Summary of facts and case.. . . . . . . . . . . . . . . . . . . . . 2
Summary of argument. . . . . . . . . . . . . . . . . . . . . . . . . 4
Argument. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

Pretrial publicity must be assessed differently
when the elements of the offense are not in
genuine dispute. . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. The meaning of “prejudicial”. . . . . . . . . . . . . 6
B. Application to the case. . . . . . . . . . . . . . . . . . . 9

II.

There was no “manifest error” in this case under
this Court’s precedents to date. . . . . . . . . . . . . 11
A. Standard of review. . . . . . . . . . . . . . . . . . . . . 11
B. This Court’s precedents.. . . . . . . . . . . . . . . . 12
1. Extent of voir dire. . . . . . . . . . . . . . . . . . . 13
2. Pretrial publicity. . . . . . . . . . . . . . . . . . . . 15
3. Mu’Min and Skilling. . . . . . . . . . . . . . . . 17
C. Application to the present case. . . . . . . . . . . 19

III.

Rules under the supervisory power
should be made rarely, if ever, and none
is called for in this case.. . . . . . . . . . . . . . . . . . . 20

(iii)

iv

A. This Court’s supervisory power. . . . . . . . . . 20
B. The Court of Appeals’ supervisory
power. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
IV.

Exclusion of evidence under the criterion
of § 3593(c) is constitutional. . . . . . . . . . . . . . . 24

Conclusion.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

v

TABLE OF AUTHORITIES
Cases
Abdul-Kabir v. Quarterman, 550 U. S. 233
(2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Aldridge v. United States, 283 U. S. 308 (1931).. . . 13
Arizona v. Fulminante, 499 U. S. 279 (1991). . . . . 8, 9
Bobby v. Van Hook, 558 U. S. 4 (2009). . . . . . . . . . . 18
Chambers v. Mississippi, 410 U. S. 284 (1973). . . . 25
Connor v. United States, 158 U. S. 408 (1895). . . . . 13
Eddings v. Oklahoma, 455 U. S. 104 (1982). . . 25, 26
Edwards v. Vannoy, 593 U. S. __, (No. 19-5807,
May 17, 2021). . . . . . . . . . . . . . . . . . . . . . . . . . 21, 22
Escobedo v. Illinois, 378 U.S. 478 (1964). . . . . . . . . 20
Estes v. Texas, 381 U. S. 532 (1965). . . . . . . . . . . . . 15
Gerstein v. Pugh, 420 U.S. 103 (1975). . . . . . . . . . . 20
Griffith v. Kentucky, 479 U. S. 314 (1987). . . . . . . . 22
Ham v. South Carolina, 409 U. S. 524 (1973). . . 13, 14
Irvin v. Dowd, 366 U. S. 717 (1961). . . . . . 7, 8, 12, 15
Kansas v. Marsh, 548 U. S. 163 (2006). . . . . . . . . . . . 8
Lockett v. Ohio, 438 U. S. 586 (1978). . . . . . . . . . . . 24
Marks v. United States, 430 U. S. 188 (1977).. . . . . 15
Marshall v. United States, 360 U. S. 310
(1959). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 15, 16

vi

McNabb v. United States, 318 U.S. 332
(1943). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
Miranda v. Arizona, 384 U.S. 436 (1966). . . . . . . 2, 20
Murphy v. Florida, 421 U. S. 794 (1975). . . . 8, 15, 16
Mu’Min v. Virginia, 500 U. S. 415
(1991). . . . . . . . . . . . . . . . . . . . 7, 8, 11, 12, 17, 18, 19
New York v. Quarles, 467 U. S. 649 (1984).. . . . . . . 10
Patriarca v. United States, 402 F. 2d 314
(CA1 1968) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Patton v. Yount, 467 U. S. 1025 (1984). . . . 7, 8, 12, 16
Payne v. Tennessee, 501 U. S. 808 (1991). . . . . . . . . 10
Peña-Rodriguez v. Colorado, 580 U. S. __,
137 S. Ct. 855, 197 L. Ed. 2d 107 (2017). . . . . . . . 14
People v. Smithey, 20 Cal. 4th 936, 978 P. 2d 1171
(1999). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Reynolds v. United States, 98 U. S. 145
(1879). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Rideau v. Louisiana, 373 U. S. 723 (1963). . . . . . 7, 15
Ristaino v. Ross, 424 U. S. 589 (1976). . . . . . . . . . . 14
Rosales-Lopez v. United States, 451 U. S. 182
(1981). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15
Sheppard v. Maxwell, 384 U. S. 333 (1966). . . . . . . 15
Skilling v. United States, 561 U. S. 358
(2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 19
Skipper v. South Carolina, 476 U. S. 1
(1986). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 26

vii

State v. Davis, 175 Wash. 2d 287, 290 P. 3d 43
(2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Teague v. Lane, 489 U. S. 288 (1989). . . . . . . . . . . . 22
United States v. Bailey, 444 U. S. 394 (1980). . . . . . . 6
United States v. Fell, 360 F. 3d 135 (CA2 2004). . . 24
United States v. Fell, 531 F. 3d 197 (CA2 2008). . . 26
United States v. Purkey, 428 F. 3d 738
(CA8 2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Smith, 534 F. 3d 1211
(CA10 2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Tsarnaev, 968 F. 3d 24
(CA1 2020). . . . . . . . . . . . . . . . . . . 2, 3, 4, 6, 9, 10, 24
Walton v. Arizona, 497 U. S. 639 (1990). . . . . . . . . . 25
United States Statutes
18 U. S. C. § 3593(c). . . . . . . . . . . . . . . . . . . . . . . . . . 24
Rules Enabling Act, 28 U. S. C. §§ 2071-2077. . . . . 21
Rules of Court
Federal Rule of Evidence 401. . . . . . . . . . . . . . . . . . 25
Federal Rule of Evidence 403. . . . . . . . . . . . . . . . . . 24
Supreme Court Rule 10(a). . . . . . . . . . . . . . . . . . . . . 20
Secondary Authorities
Barrett, The Supervisory Power of
the Supreme Court, 106 Colum. L. Rev. 324
(2006). . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 20, 21, 23

viii

Beale, Reconsidering Supervisory Power in
Criminal Cases: Constitutional and Statutory
Limits on the Authority of the Federal Courts,
84 Colum. L. Rev. 1433 (1984). . . . . . . . . . . . . . . . 21
Dzhokhar Tsarnaev Interrogation Notes, online at
https://www.scribd.com/document/391368362/
Dzhokhar-Tsarnaev-interrogation-notes.. . . . . . . 11
Emshwiller, An Audacious Enron Defense:
Company’s Moves Were All Legal, Wall Street
Journal, Jan. 20, 2006, online at
https://www.wsj.com/articles/SB113772974804
651717. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Green, Federal Courts’ Supervisory Authority
in Federal Criminal Cases: The Warren Court
Revolution that Might Have Been,
49 Stetson L. Rev. 241 (2020).. . . . . . . . . . . . . . . . 21
Judicial Conference of the United States,
How the Rulemaking Process Works, online at
https://www.uscourts.gov/rules-policies/
about-rulemaking-process/how-rulemakingprocess-works. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Scheidegger, Tinkering with the Machinery
of Death: Lessons from a Failure of Judicial
Activism, 17 Ohio St. J. Crim. L. 131 (2019).. . . . 25
Story, J., Commentaries on the Constitution
of the United States (abridged ed. 1833)
(reprint 1987). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,
vs.
DZHOKHAR A. TSARNAEV,
Respondent.
BRIEF AMICUS CURIAE OF THE
CRIMINAL JUSTICE LEGAL FOUNDATION
IN SUPPORT OF PETITIONER

INTEREST OF AMICUS CURIAE
The Criminal Justice Legal Foundation (CJLF)1 is a
non-profit California corporation organized to participate in litigation relating to the criminal justice system
as it affects the public interest. CJLF seeks to bring the
constitutional protection of the accused into balance
with the rights of the victim and of society to rapid,
efficient, and reliable determination of guilt and swift
execution of punishment.
In this case, the Court of Appeals for the First
Circuit overturned the well-deserved sentence of death
for a horrible and infamous crime for one reason that

1. The parties have filed blanket consents to amicus briefs. No
counsel for a party authored this brief in whole or in part. No
counsel, party, or any person or entity other than amicus
curiae CJLF made a monetary contribution to its preparation
or submission.

2

has no basis in the Constitution, laws, or rules of court
of the United States and a second reason that is a
misapplication of the governing statute. Obstruction of
justice on such flimsy grounds is contrary to the interests CJLF was formed to protect.
SUMMARY OF FACTS AND CASE
Defendant Dzhokhar Tsarnaev, along with his
brother, committed one of the most atrocious acts of
terrorism that has ever been committed on American
soil—the infamous Boston Marathon bombing. See
United States v. Tsarnaev, 968 F. 3d 24, 34 (CA1 2020)
(Tsarnaev III).2 “Radical jihadists bent on killing
Americans, the duo caused battlefield-like carnage.
Three people died. And hundreds more suffered horrific, life-altering injuries. Desperately trying to flee the
state, the brothers also gunned down a local campus
police officer in cold blood.” Ibid.
Tsarnaev did not merely kill and injure children
incidentally. He is on camera intentionally placing his
bomb behind a row of children watching the race. J. A.
163.
Tsarnaev confessed twice before trial. One confession was written on wooden slats in a boat where he
was hiding from the police. See Tsarnaev III, 968 F. 3d,
at 38. The second confession occurred when he was
questioned by police in the hospital without complying
with the requirements of Miranda v. Arizona, 384 U. S.
436 (1966), because public safety required determining

2. The Court of Appeals refers to its two prior decisions denying
writs of mandamus as Tsarnaev I and Tsarnaev II. See
Tsarnaev III, 968 F. 3d, at 40, n. 11.

3

if there were more conspirators planning additional
attacks. See Tsarnaev III, supra, at 38-39.
This crime was, of course, the subject of extensive
news coverage. “[W]hile the media (social, cable,
internet, etc.) gave largely factual accounts, some of the
coverage included inaccurate or inadmissible information — like the details of his un-Miranda-ized hospital
interview and the opinions of public officials that he
should die.” Id., at 58 (citation omitted).
The trial court’s questionnaire asked prospective
jurors about the publicity they had seen, but the court
refused Tsarnaev’s request to ask the prospective jurors
about the specific content. The court also declined to
ask such questions during voir dire. The court did,
however, allow follow-up questions by counsel, and
defense counsel did ask content questions of some
prospective jurors. See Brief for the United States 8-10.
In opening argument, defense counsel admitted that
Tsarnaev committed the crimes of which he was accused.
“There’s little that occurred the week of April the
15th—the bombings, the murder of Officer Collier,
the carjacking, the shootout in Watertown—that we
dispute. If the only question was whether or not
that was Jahar Tsarnaev in the video that you will
see walking down Boylston Street, or if that was
Jahar Tsarnaev who dropped the backpack on the
ground, or if that was Jahar Tsarnaev in the
boat—captured in the boat, it would be very easy for
you: It was him.” J. A. 190.
Counsel claimed that Tsarnaev was “influenced” by his
older brother and co-conspirator Tamerlan Tsarnaev,
but did not claim that he was coerced. “The evidence
will not establish, and we will not argue, that Tamerlan
put a gun to Jahar’s head or that he forced him to join

4

in the plan, but you will hear evidence of the kind of
influence that this older brother had.” J. A. 193-194.
In the penalty phase, to bolster its argument of
“influence” but not duress, the defense sought to
introduce evidence that the brother had earlier committed unrelated crimes of robbery and murder. The
evidence consisted of an oral, self-serving, hearsay
statement of the accomplice to those crimes as he was
seeking “a deal for cooperating.” Tsarnaev III, 968
F. 3d, at 64. The accomplice admitted that he participated in the robbery but did not want any part of killing
the victims to eliminate them as witnesses. Ibid. The
trial judge excluded the evidence on the ground that it
“ ‘would be confusing to the jury and a waste of time, ...
without any probative value.’ ” Id., at 66.
The Court of Appeals vacated the death sentences
on the voir dire issue. See id., at 62. The court also
ruled that the exclusion of the unrelated crime evidence
was prejudicial error. See id., at 68. This Court granted
the Government’s petition for writ of certiorari.
SUMMARY OF ARGUMENT
The prejudicial nature of evidence must be judged in
light of what issues are genuinely in dispute and what
evidence is admissible at trial on those issues. This case
is unique among this Court’s pretrial publicity cases in
that guilt of the crime was not genuinely at issue.
Publicity of the horror of the crime and devastation to
the victims can be prejudicial in a case of disputed guilt
because those facts have no logical relevance to the
question of who committed the crime but may trigger
an emotional reaction from the jury to the detriment of
the person accused. In the penalty phase of a capital
case, however, those factors are quite properly before
the jury and may be presented in evidence at trial. The

5

fact that prospective jurors have seen news reports of
horrors that they are going to see in evidence is not
prejudicial. Similarly, news reports of a confession not
admitted in evidence are not prejudicial if they do not
contain facts material to penalty that are not established at trial by other evidence or admissions of the
defense.
The standard of review on the voir dire issue is
“manifest error.” There is no error under this Court’s
precedents to date, especially Mu’Min v. Virginia. The
vacatur of the death sentence could be upheld only if (1)
this Court used this case to establish a different rule for
federal courts under its supervisory power, or (2) it
decided the case under the First Circuit’s rule.
Making bright-line rules of procedure not required
by the Constitution, statutes, common law, or duly
promulgated rules of court via the supervisory power is
an exercise of dubious legitimacy. While this Court once
did so fairly often, the practice has largely fallen into
disuse for many years now. It should not be revived.
When new rules of procedure are needed, the Rules
Enabling Act provides a better method. The rulemaking
power there is clearly authorized by law. It provides a
more deliberate and open process. Most importantly,
improvements to procedure can be made prospectively
without overturning just convictions and sentences that
were properly entered under the rules in effect at the
time of the trial.
The trial judge’s exclusion of evidence was well
within his discretion under 18 U. S. C. § 3593(c). The
constitutionality of applying rules of evidence to exclude dubious evidence of marginal probative value is
well established. Loose language in some of this Court’s
Eighth Amendment cases should not be construed to
cast any doubt on this statute.

6

ARGUMENT
I. Pretrial publicity must be assessed
differently when the elements of the offense
are not in genuine dispute.
Out of the gate, this case is different from the
Court’s previous pretrial publicity cases in a way that
requires a different analysis of what publicity is prejudicial. “During the guilt phase of his trial, [defendant’s]
lawyers did not dispute that he committed the charged
acts. Rather, their guilt-phase defense rested on the
idea that he participated in these horrible crimes only
under [his brother] Tamerlan [Tsarnaev]’s influence.”
Tsarnaev III, 968 F. 3d, at 41 (emphasis added). The
“influence” claim would not come remotely close to
qualifying for a duress defense in the guilt phase,
compare J. A. 193-194, with United States v. Bailey, 444
U. S. 394, 410-411 (1980), so guilt was not substantially
disputed. The elements of the prosecution’s prima facie
case—i.e., the facts that would have the jury believing
the defendant was guilty at the close of the prosecution’s case in chief—were not disputed at all.
This unusual posture of the case requires that we
take a step back and consider how the pretrial publicity
precedents apply in this different context.
A. The Meaning of “Prejudicial.”
“Prejudice” in the pretrial publicity cases generally
refers to publicity that would lead the jury to convict
the defendant for an improper reason. The most common type is factual information that is not admissible
and will not be admitted at trial. See Marshall v. United
States, 360 U. S. 310 (1959) (per curiam) (prior conviction and admission of prior, very similar, criminal act).
As the Court noted in Marshall, at 312-313, the introduction of inadmissible evidence to the jury via the

7

press may be worse than the erroneous admission of it
at trial, “for it is then not tempered by protective
procedures.” In Rideau v. Louisiana, 373 U. S. 723, 724
(1963), an interrogation of the defendant by the county
sheriff was video recorded and broadcast on television,
but not introduced in evidence. See id., at 728 (Clark,
J., dissenting).
The second type of prejudicial publicity is coverage
that is inflammatory in tone, creating a “wave of public
passion,” Irvin v. Dowd, 366 U. S. 717, 728 (1961), and
“exerting pressures upon potential jurors before trial
and even during the course of trial, thereby making it
extremely difficult, if not impossible, to secure a jury
capable of taking in, free of prepossessions, evidence
submitted in open court.” Id., at 730 (Frankfurter, J.,
concurring). These cases typically involve lurid crimes
in rural areas. Compare id., at 725 (noting rural area),
with Mu’Min v. Virginia, 500 U. S. 415, 429 (1991)
(noting that the county was part of the metropolitan
Washington area, distinguishing Irvin).
The second type may well be largely a thing of the
past. People are no longer so isolated, and their news
sources are no longer so localized. Crimes of major
violence are, regrettably, common in the news no
matter where one lives because our news sources are
broader. “True crime” shows abound on television.
People are more jaded. Further, major criminal cases
rarely go to trial as quickly as they did at the time of
Irvin. Patton v. Yount, 467 U. S. 1025, 1033 (1984),
noted the greater lapse of time as a factor distinguishing Irvin. Justice Frankfurter lamented how common
such cases were at the time of Irvin, 366 U. S., at 730
(concurring opinion), but “wave of public passion” cases
are relatively rare today.
For the first type, prejudice for guilt is not the same
as prejudice for penalty. The defendant’s prior criminal

8

record is a very common type of factual publicity
claimed to be prejudicial. See Irvin, 366 U. S., at 725;
Murphy v. Florida, 421 U. S. 794, 795 (1975); Mu’Min,
500 U. S., at 418. The defendant’s record is usually
irrelevant and inadmissible in the guilt phase. The jury
is supposed to be deciding whether the defendant
committed the crime in fact, not making a moral
judgment about how bad a person he is. A confession
that is inadmissible because it was coerced or at least
un-Mirandized is powerful evidence that jurors may not
be able to get out of their minds. See Patton v. Yount,
467 U. S., at 1047 (Stevens, J., dissenting); see also
Arizona v. Fulminante, 499 U. S. 279, 290 (1991)
(discussing prejudice in harmless error context).
However, for these kinds of pretrial publicity, the
prejudicial nature is attenuated, and perhaps eliminated, when neither the criminal act nor its intentional
nature nor the identity of the perpetrator is disputed.
A confession admitting identity is hardly prejudicial
when the defendant’s own attorney tells the jury “[i]t
was him.” J. A. 190. Evidence excluded in the guilt
phase because it merely shows that the defendant is a
bad person, especially prior convictions, is highly
relevant and proper in the penalty phase.3 Making a
moral judgment about the defendant and whether he
deserves to die is exactly what the jury is supposed to
do in the penalty phase. See Kansas v. Marsh, 548 U. S.
163, 179 (2006).
The potential for prejudice of various instances of
pretrial publicity must be judged in light of what the
jurors are expected to decide and how the news reports
relate to the admissible evidence. Even in the guilt

3. There are no prior convictions in this case, but we include this
point for completeness because many, probably most, cases of
this type do involve prior convictions.

9

phase, admitting an inadmissible confession may be
harmless error if a properly admitted confession covers
substantially the same ground. See Fulminante, 499
U. S., at 310. The trial judge’s determination of
whether jurors are biased and what depth of voir dire is
needed to determine whether they are biased have been
given considerable deference in this Court’s decisions.
In this case, those determinations need to be reviewed
with due regard to the unusual posture of the case.
B. Application to the Case.
Applying these considerations to the present case
makes it even more straightforward than the Government’s argument makes out. The extent to which the
pretrial publicity was prejudicial is greatly reduced by
the fact that only the penalty was genuinely contested.
In accepting Tsarnaev’s argument on this point, the
Court of Appeals described the allegedly prejudicial
pretrial publicity that it believed triggered a duty to ask
content-specific questions:
“And there was ‘a significant possibility’ that the
prospective jurors had been ‘exposed to potentially
prejudicial material.’ Again, the pervasive coverage
of the bombings and the aftermath featured
bone-chilling still shots and videos of the Tsarnaev
brothers carrying backpacks at the Marathon, of the
maimed and the dead near the Marathon’s finish
line, and of a bloodied Dzhokhar arrested in Watertown (to name just a few). Also, while the media
(social, cable, internet, etc.) gave largely factual
accounts, some of the coverage included inaccurate
or inadmissible information — like the details of his
un-Miranda-ized hospital interview and the opinions of public officials that he should die.” Tsarnaev
III, 968 F. 3d, at 58 (citations omitted).

10

Graphic details of a horrible crime may be deeply
prejudicial in the guilt phase because the horror of the
crime has no logical connection with the question of
who committed it or other issues regarding guilt, but it
may produce an emotional reaction that makes the jury
more prone to convict. See, e.g., United States v. Smith,
534 F. 3d 1211, 1219 (CA10 2008). In the penalty phase
of a capital case, though, the horror of crime and the
“specific harm caused by the defendant” are quite
properly front and center “for the jury to assess meaningfully the defendant’s moral culpability and blameworthiness.” Payne v. Tennessee, 501 U. S. 808, 825
(1991).
The Court of Appeals’ statement that the hospital
confession was inadmissible is doubtful. New York v.
Quarles, 467 U. S. 649 (1984), held that a confession
taken without Miranda compliance to meet an urgent
public safety need is admissible. In this case, the police
did not yet know whether there were other conspirators
out planting more bombs. See Tsarnaev III, 968 F. 3d,
at 38-39. A more urgent public safety need can scarcely
be imagined. However, the Government stipulated that
they would not introduce the confession because they
simply did not need it. The other evidence made it
unnecessary. See Brief for United States in No. 16-6001
(CA1), p. 297.
The same reasons that led the prosecution to decide
that the confession was unnecessary also undermine
the claim of prejudice. Whether the jurors’ possible
knowledge of a confession is prejudicial depends on
what facts are in issue and what aspects of the confession are redundant with admissible evidence. See supra,
at 9. The Court of Appeals did not specify what statements within this confession reveal damaging information not already revealed by the admissible “note in the
boat,” the videos, or other admissible evidence. The full

11

notes are now available to the public. See Dzhokhar
Tsarnaev Interrogation Notes, online at https://www.
scribd.com/document/391368362/Dzhokhar-Tsarnaevinterrogation-notes.4 There does not appear to be
anything material in them that was not apparent from
admissible evidence or his lawyers’ admissions. He
committed the crime with his brother, and he did it as
an act of jihad and out of hatred for the United States.
The jury knew all that from admissible evidence.
The Court of Appeals is correct that opinions of any
person about whether Tsarnaev should be executed are
inadmissible. However, the idea that jurors are going to
be indelibly stained by the opinions of politicians
printed in the newspaper is far-fetched.
Relative to this Court’s earlier pretrial publicity
cases, discussed in the next part, the pretrial publicity
in this case has much less prejudicial impact. This
aspect of the case brings the trial judge’s decision even
more clearly under the umbrella of discretion that
should be respected by reviewing courts.
II. There was no “manifest error” in this case
under this Court’s precedents to date.
A. Standard of Review.
In cases on direct review from both federal and state
courts, this Court has long held that a trial judge’s
decision on the question of jury bias “ought not to be
set aside by a reviewing court, unless the error is
manifest.” Reynolds v. United States, 98 U. S. 145, 156
(1879); Mu’Min v. Virginia, 500 U. S. 415, 428 (1991);
Skilling v. United States, 561 U. S. 358, 396 (2010). The
same standard was applied on federal habeas corpus in
4. This is part of document 1744-1 from the District Court docket.

12

Irvin v. Dowd, 366 U. S. 717, 723-724 (1961) (discussing
Reynolds and later cases), and Patton v. Yount, 467
U. S. 1025, 1031 (1984) (citing Irvin).5
Reynolds involved a challenge to a specific juror, but
Irvin applied the standard to a broader claim, that the
massive publicity has tainted the community as a
whole. See 366 U. S., at 725-728. Patton applied the
same standard to a “finding that the jury as a whole
was impartial.” 467 U. S., at 1032. Mu’Min erases any
doubt. The challenge in that case was the same as this
one, that “the trial judge refused to question further
prospective jurors about the specific contents of the
news reports to which they had been exposed.”
Mu’Min, 500 U. S., at 417. The Court applied the
manifest error standard to this claim, see id., at 428,
over the dissent’s protest that it should not apply. See
id., at 439.
The opinion of the Court in Mu’Min, not the dissent,
controls. “Manifest error” is the standard of review in
this case.
B. This Court’s Precedents.
This Court’s precedents on pretrial publicity and
mandatory voir dire questions include both constitutional decisions that apply to state and federal courts
alike and “supervisory power” cases that apply only to
federal courts. Sometimes the distinction matters, but
usually it does not.

5. Patton put off to another day whether the then-existing
statutory standard for deference to state court findings of fact,
enacted after Irvin, raised a higher bar. See 467 U. S., at 1031,
n. 7. Similar issues would be raised today under the current
subdivisions (d) and (e)(1) of 28 U. S. C. §§ 2254. There is, of
course, no need to address them in this federal direct appeal
case.

13

1. Extent of voir dire.
Cases on extent of voir dire in federal courts in the
late nineteenth and early twentieth centuries appear to
approach the question as one of the limits of discretion
in particular circumstances without laying down any
bright-line rules. In Connor v. United States, 158 U. S.
408, 409-412 (1895), a defendant accused of election
interference was denied a voir dire question on whether
political affiliation would bias the juror’s judgment. No
special circumstances were shown to take the question
outside the bounds of the trial court’s discretion. See
id., at 415.
Aldridge v. United States, 283 U. S. 308 (1931), in
which a black defendant was tried for murder of a white
D.C. policeman, held that some kind of inquiry is
required on voir dire where the possibility of prejudice
is not too remote, distinguishing Connor as a “too
remote” case. See id., at 314, and n. 4. Aldridge decided
the case as a straight criminal procedure case, citing
state cases for most of its precedents and making no
mention of the Constitution. Aldridge also made no
mention of the supervisory power, which is not surprising given that power was not invented until three years
later. See Barrett, The Supervisory Power of the
Supreme Court, 106 Colum. L. Rev. 324, 328-329
(2006).
Ham v. South Carolina, 409 U. S. 524 (1973), was
factually similar to Aldridge but was tried in a state
court. Ham confirmed that Aldridge was not based in
the Constitution but held that the Due Process Clause
of the Fourteenth Amendment required questioning the
jurors on racial prejudice. See id., at 526-527. Ham
noted that racial prejudice is special in this regard,
given the purpose of the Fourteenth Amendment, and
rejected an argument that the judge must question
jurors about prejudice against men who wear beards.

14

See id., 527-528; see also Peña-Rodriguez v. Colorado,
580 U. S. __, 137 S. Ct. 855, 869, 197 L. Ed. 2d 107, 125
(2017) (constitutionally required exception to noimpeachment rule for race only).
Ristaino v. Ross, 424 U. S. 589, 596, and n. 8 (1976),
confirmed that the constitutional rule of Ham was an
“all of the circumstances” rule and not a broad per se
rule for any case where a black defendant is accused of
a violent crime against a white victim. However, the
Court dropped a curious footnote, saying “the wiser
course generally is to propound appropriate questions
designed to identify racial prejudice if requested by the
defendant. Under our supervisory power we would have
required as much of a federal court faced with the
circumstances here.” Id., at 597, n. 9 (citing Aldridge).
The cite to Aldridge for this proposition is curious given
that Aldridge was neither a “supervisory power” case
nor a per se rule. The holding of Ross is that the Constitution does not require voir dire on racial prejudice
specifically when “[t]he circumstances [do] not suggest
a significant likelihood that racial prejudice might infect
[the defendant’s] trial.” Id., at 598.
The question returned to this Court in the federal
case of Rosales-Lopez v. United States, 451 U. S. 182
(1981). The plurality opinion purports to lay down an
odd supervisory power rule that questions on racial
prejudice should be asked whenever the defendant asks
for them, but failure to do so “will be reversible error
only where the circumstances of the case indicate that
there is a reasonable possibility that racial or ethnic
prejudice might have influenced the jury.” Id., at 191.
There is not a lot of daylight between the plurality’s
criterion for reversible error under its supervisory
power rule and the constitutional standard established
by Ham and Ross.

15

It is doubtful whether a plurality opinion can
establish a supervisory power rule at all. The concurring opinion’s “ ‘case-by-case’ ” approach, id., at 195
(opinion of Rehnquist, J.), is the narrower ground. See
Marks v. United States, 430 U. S. 188, 193 (1977). But
even if the plurality’s rule is deemed officially created,
when the question is whether to reverse a judgment on
appeal due to the trial court’s denial of race-specific voir
dire, there is little or no difference between that rule
and the constitutional requirement.
2. Pretrial Publicity.
Irvin, supra, Rideau v. Louisiana, 373 U. S. 723
(1963), Estes v. Texas, 381 U. S. 532 (1965), and Sheppard v. Maxwell, 384 U. S. 333 (1966), were cases
involving “a trial atmosphere that had been utterly
corrupted by press coverage.” Murphy v. Florida, 421
U. S. 794, 798 (1975). We can put these cases to one
side, as that is not the claim in this appeal.
The clearest example of a nonconstitutional, federalonly precedent on pretrial publicity is Marshall v.
United States, 360 U. S. 310 (1959). Marshall is a brief,
cryptic per curiam.6 The opinion recites the facts,
including press reports7 of the defendant’s prior conviction and legislative testimony admitting illegal conduct
very similar to the charged offense. It notes that the
jury received this prejudicial, inadmissable information,

6. Marshall is a prime example of why making rules of procedure
through the supervisory power is often unwise, a point we will
return to in Part III, infra. A strong argument can be made
that Marshall was wrongly decided and should be overruled to
the extent that it established any kind of bright-line rule, but
that issue is for another day.
7. The reports in Marshall were during trial rather than pretrial,
see id., at 311, but that difference is not material.

16

and without further explanation declares that “[i]n the
exercise of our supervisory power to formulate and
apply proper standards ... we think a new trial should
be granted.” Id., at 313. Exactly what standard is
formulated in this case is unclear. Surely not every trial
in which jurors have read inadmissible information
needs to be reversed. That would be an impossible
standard.
Murphy v. Florida, 421 U. S., at 798, read Marshall
as establishing “the principle ... that persons who have
learned from news sources of a defendant’s prior
criminal record are presumed to be prejudiced.” But
that principle does not have “any application beyond
the federal courts.” Ibid. It also has no application in
this case, as none of the coverage involves a prior
criminal record. In Murphy itself, the Court examined
the voir dire and determined that it did not indicate the
kind of “partiality that could not be laid aside.” Id., at
800. The fact that the amount of publicity had sharply
declined in the seven months before trial was also
significant. See id., at 802.
Patton, 467 U. S., at 1032, like Murphy, looked to all
the circumstances to determine “that the trial court did
not commit manifest error in finding that the jury as a
whole was impartial.” A particularly important circumstance was the lapse of time resulting from the fact that
this was Yount’s second trial. The crime and the first
trial both occurred in 1966. Id., at 1026-1027. The trial
being reviewed was four years later, see id., at 1027, a
time lapse similar to the present case. See App. to Pet.
for Cert. 47a. “That time soothes and erases is a perfectly natural phenomenon, familiar to all.” 467 U. S.,
at 1034. “In the circumstances of this case, we hold that
[the passage of time] clearly rebuts any presumption of
partiality or prejudice that existed at the time of the
initial trial.” Id., at 1035.

17

What we see in all these pre-Mu’Min cases is that,
aside from Marshall, there has been little difference
between the constitutional standard and the standard
for federal courts in cases on pretrial publicity and
adequacy of voir dire. What little there is is limited to
the prior conviction publicity rule in Marshall and,
possibly, the racial bias voir dire issue in Rosales-Lopez.
Neither applies to this case.
3. Mu’Min and Skilling.
Mu’Min v. Virginia, supra, is thus the primary
precedent for this case. It involves the same issue, the
lack of content-specific questions on voir dire. See 500
U. S., at 417. Mu’Min reviewed the state and federal
cases on voir dire separately but ultimately found little
difference between them, instead finding that “two
parallel themes emerge from both sets of cases.” Id., at
424. One dealt with real possibility of prejudice when a
black defendant was charged with a violent crime
against a white victim, a concern not present in this
case. The other was that “the trial court retains great
latitude in deciding what questions should be asked on
voir dire.” Ibid.
Mu’Min then went to discuss the defendant’s claim
that pretrial publicity calls for a stricter rule on voir
dire than racial prejudice. Much of this discussion
involves practical considerations that apply just as
much to a supervisory power question as they do to a
constitutional question. There is the problem of the voir
dire process itself conveying inadmissible information
to jurors who had not previously heard it and the
downside of conducting individual voir dire to avoid
that problem. See id., at 425. There is the difficulty of
an appellate court reviewing the adequacy of voir dire
when the trial judge is in a superior position to judge
credibility and demeanor and has the local knowledge.

18

See id., at 424, 427. The weight of authority from other
courts tilted the other way. There was much greater
agreement on the need for inquiry on racial prejudice
than for pretrial publicity. See id., at 426. These considerations all weigh against the creation of a rigid voir
dire requirement whether the asserted authority is
constitutional or supervisory.
The same is true for the Mu’Min Court’s treatment
of the ABA Standards for Criminal Justice. See id., at
430. The ABA’s proposed voir dire rule is based on a
substantive standard for disqualification that the
Constitution does not require, see ibid., but also that
federal law does not require. The ABA Standards,
moreover, “have not commended themselves to a
majority of the courts that have considered the question.” Ibid.8 These considerations also weigh against
adopting them, or a variation of them, under the
supervisory power as well.
Mu’Min holds that while the subject of pretrial
publicity must be covered, content specific questions
are not required. See id., at 431. This holding is limited
to constitutional requirements, the only question before
the Court in that case, but the implication is strong that
the Court’s greater “latitude in setting standards for

8. In matters of criminal law, the American Bar Association long
ago ceased to be representative of the profession as a whole and
regularly takes the side of the defense bar whenever it takes a
stand on matters where the defense bar is largely on one side
and prosecutors are generally on the other. See Brief for
Criminal Justice Legal Foundation as Amicus Curiae in
Wiggins v. Smith, No. 02-311 (Oct. Term. 2002), pp. 25-27,
online at http://www.cjlf.org/program/briefs/Wiggins.pdf (all
Internet materials as last visited June 16, 2021). There is no
reason why its publications “should be given a privileged
position.” Bobby v. Van Hook, 558 U. S. 4, 14 (2009) (Alito, J.,
concurring). They are position papers of an interest group like
any other and should be treated as such.

19

voir dire in federal courts,” id., at 424, would not have
been exercised even if available. There are certainly no
precedents from this Court indicating that a different
rule for federal courts applies to voir dire regarding
pretrial publicity.
Indeed, the defendant in Skilling, supra, a tycoon
who could afford pricey legal talent,9 did not bother to
make a supervisory power argument at all. See 561
U. S., at 446, n. 9 (Sotomayor, J., concurring in part and
dissenting in part). Skilling is different from Mu’Min
and the present case in that the trial court did ask
about the content of news stories the venire members
had seen. See id., at 374. Even so, Skilling did challenge the adequacy of voir dire, and the Court’s response was similar to Mu’Min. Relying on both constitutional and supervisory power cases, the Skilling
Court noted that jury selection “is ‘particularly within
the province of the trial judge.’ ” Id., at 386 (quoting
Ristaino v. Ross, 424 U. S. 589, 594-595 (1976)).
C. Application to the Present Case.
Applying only this Court’s existing precedents,
without regard to the First Circuit’s supervisory rule or
whether this Court should create a similar one, this
case is straightforward. Mu’Min v. Virginia, supra, is
on point and fatal to the defendant’s case. See also Brief
for United States 32-35. For the reasons discussed in
Part I, this case is even more clearly within the trial
judge’s discretion than Mu’Min. Much coverage that
would be prejudicial in a case of disputed guilt was not
prejudicial in a case about penalty only.

9. See Emshwiller, An Audacious Enron Defense: Company’s
Moves Were All Legal, Wall Street Journal, Jan. 20, 2006,
online at https://www.wsj.com/articles/SB113772974804651717
(“$40 Million War Chest”).

20

III. Rules under the supervisory power
should be made rarely, if ever, and none
is called for in this case.
A. This Court’s Supervisory Power.
“Supervisory power,” sometimes phrased “supervisory authority,” is a term with multiple meanings. As
used here, it means “the power of an appellate court to
supervise lower courts by prescribing procedures for
them above and beyond those required by statutory and
constitutional provisions,” Barrett, The Supervisory
Power of the Supreme Court, 106 Colum. L. Rev. 324,
330 (2006), and, we would add, rules of court established under the Rules Enabling Act.10
This power was asserted in McNabb v. United
States, 318 U. S. 332, 340 (1943), with remarkably little
to back it up. See Barrett, supra, at 329. McNabb was
“a self-conscious exercise of supervisory rulemaking in
the context of adjudication rather than in the process of
promulgating court rules.” Ibid. McNabb established a
rule excluding confessions that resulted from prolonged
detention, 318 U. S., at 341-342, long before this Court
invoked the Bill of Rights to establish detailed rules
regarding custody and questioning. See generally
Escobedo v. Illinois, 378 U. S. 478 (1964) (Sixth Amendment, counsel during questioning); Miranda v. Arizona,
384 U. S. 436 (1966) (Fifth Amendment, rules for
questioning); Gerstein v. Pugh, 420 U. S. 103 (1975)
(Fourth Amendment, hearing for prolonged detention).
Whether the supervisory power has any constitutional justification is debatable. Compare Barrett,

10. A marked departure from accepted practice calling upon this
Court to exercise an error-correcting function rather than
promulgate a rule of procedure is a different use of the term.
See Supreme Court Rule 10(a).

21

supra, with Beale, Reconsidering Supervisory Power in
Criminal Cases: Constitutional and Statutory Limits on
the Authority of the Federal Courts, 84 Colum. L. Rev.
1433 (1984). That debate need not be resolved in this
case. As a practical matter, this Court’s interest in
promulgating rules this way has waned through the
years. The most recent of the examples discussed in
Barrett, 106 Colum. L. Rev., at 328-333, was nearly 20
years old at the time of the 2006 article, and most were
much older. Green, Federal Courts’ Supervisory Authority in Federal Criminal Cases: The Warren Court
Revolution that Might Have Been, 49 Stetson L. Rev.
241, 255-261 (2020), traces the decline in use.
Two reasons suggest themselves for this declining
invocation of the power. First, the need for “establishing and maintaining civilized standards of procedure
and evidence,” McNabb, 318 U. S., at 340 (emphasis
added), is greatly reduced after decades of intense
scrutiny of criminal procedure by this Court. The
chances are infinitesimal that any uncivilized practices
remain at large in the federal courts. Cf. Edwards v.
Vannoy, 593 U. S. __, (No. 19-5807, May 17, 2021) (slip
op., at 15).
Second, where nationwide uniform standards of
practice are needed, the Rules Enabling Act, 28 U. S. C.
§§ 2071-2077, provides a superior mechanism for
establishing them. A system of deliberate consideration
and public notice and comment has been established
that provides a better exploration of the full consequences of a proposed rule. See Judicial Conference of
the United States, How the Rulemaking Process Works,
online at https://www.uscourts.gov/rules-policies/aboutrulemaking-process/how-rulemaking-process-works. In
the event that experience shows that the rule needs
revision, the rulemaking process provides a smoother
path to making that adjustment, rather than waiting

22

for a case to reach this Court presenting the issue and
then grappling with complex issues of stare decisis to
overrule a precedent.
Most important of all, use of the Rules Enabling Act
allows for prospective-only application, avoiding the
injustices that follow from retroactive application of
new rules announced in caselaw. A rule must apply to
the case in which it is announced. See Teague v. Lane,
489 U. S. 288, 315 (1989) (plurality opinion). Then the
rule must generally be applied to all defendants similarly situated, which typically means, at a minimum, all
cases pending on direct appeal. Griffith v. Kentucky,
479 U. S. 314, 322 (1987).
Reversing judgments in criminal cases that were
tried correctly under all applicable statutes and constitutional provisions as interpreted at the time because
the interpretation changes later is a heavy cost to
society. Retrying cases is not only a cost in time and
money, but justice may be defeated altogether if the
staleness of the case results in the wrongful acquittal of
a guilty criminal. See Edwards v. Vannoy, supra (slip
op., at 6-7). Such results weaken public confidence in
our judicial system. These costs may be necessary to
correct mistaken interpretations of the Constitution
while maintaining principled decision-making, but they
are not necessary to establish new rules of procedure.
Congress has provided a better way, and that better
way should be used if a new rule is needed.
A just result in the present case can be achieved by
simply assessing the adequacy of the voir dire under
this Court’s existing precedents, as described in Parts
I and II, supra. Creating a new bright-line rule under
the supervisory power is unnecessary and improper.

23

B. The Court of Appeals’ Supervisory Power.
This brings us, finally, to the Court of Appeals’
actual basis of decision, its own supervisory-power rule
in Patriarca v. United States, 402 F. 2d 314 (CA1 1968).
If the existence of a supervisory rulemaking power in
this Court is debatable, the existence of such a power in
the courts of appeals is even shakier. See Barrett, 106
Colum. L. Rev., at 335, n. 48. The posture of the present
case illustrates one reason for caution with regard to
such powers.
A question of law is now presented to this Court for
decision. Let us assume that there is no basis in the
Constitution, statutes, formally established rules of
court, or this Court’s precedents to conclude that the
District Court committed a reversible error and further
assume that this Court does not promulgate a
supervisory-power rule of its own, as argued in the
previous parts of this brief. Can this Court uphold the
reversal of the District Court’s judgment on the basis of
the First Circuit’s supervisory rule? Can this Court
uphold the reversal when the facts of the case would
not require reversal if the trial were held in a district
court in a different circuit? That would be more than a
little strange.
Providing a uniform rule on federal law for all courts
to follow nationwide is the principal reason this Court
was created in the first place. See J. Story, Commentaries on the Constitution of the United States § 827, pp.
589-590 (abridged ed. 1833) (reprint 1987). Assuming
for the sake of argument that the courts of appeals have
a supervisory rulemaking power over the district courts
at all, such rules should be considered tentative until
the issue reaches this Court. This Court should decide
the present case without regard to Patriarca, and the
resulting precedent should control the question thereafter in all federal circuits. So considered, the District

24

Court did not commit error at all, much less “manifest
error.”
IV. Exclusion of evidence under the criterion
of § 3593(c) is constitutional.
The Government has amply explained why the
District Court’s exclusion of evidence of an unrelated
crime committed by the defendant’s deceased accomplice/brother was well within the judge’s ample discretion under 18 U. S. C. § 3593(c). See Brief for the
United States 38-45. However, because the Court of
Appeals relied on Skipper v. South Carolina, 476 U. S.
1 (1986), for this point, see Tsarnaev III, 968 F. 3d, at
73, amicus will add a few words on why potentially
misleading language in that opinion should not be
considered to cast any constitutional doubt on the
statutory standard.
In the penalty phase of federal capital cases,
§ 3593(c) waives all rules of evidence except for one of
its own creation: “information may be excluded if its
probative value is outweighed by the danger of creating
unfair prejudice, confusing the issues, or misleading the
jury.” This is the familiar standard of Federal Rule of
Evidence 403 with the conspicuous omission of the
requirement that the outweighing be substantial.
“Thus, the presumption of admissibility of relevant
evidence is actually narrower under the [Federal Death
Penalty Act] than under the [Federal Rules of Evidence].” United States v. Fell, 360 F. 3d 135, 145 (CA2
2004).
Skipper noted the rule of Lockett v. Ohio, 438 U. S.
586 (1978), and then noted a “corollary rule that the
sentencer may not refuse to consider or be precluded
from considering ‘any relevant mitigation evidence.’ ”
476 U. S., at 4 (quoting Eddings v. Oklahoma, 455 U. S.

25

104, 114 (1982)). Taken literally, this language could be
interpreted to mean that the Eighth Amendment
completely preempts all rules on the admissibility of
mitigating evidence save only the very minimal threshold of relevance. See Federal Rule of Evidence 401
(definition of relevant evidence). However, Skipper and
Eddings v. Oklahoma, 455 U. S. 104 (1982), have not
been understood that way and they should not be now.
Whenever considering the Lockett line, it is worth
noting that the mandate of that case is a high-handed
act of judicial activism without a shred of justification
in the text or history of the Constitution. See Walton v.
Arizona, 497 U. S. 639, 671 (1990) (Scalia, J., concurring in part and concurring in the judgment); Scheidegger, Tinkering with the Machinery of Death: Lessons from a Failure of Judicial Activism, 17 Ohio
St. J. Crim. L. 131, 153 (2019). Although intended to
produce clarity, Lockett has sown chaos from the day it
was decided. That case and its numerous progeny have
been accurately described as “a dog’s breakfast of
divided, conflicting, and ever-changing analyses.”
Abdul-Kabir v. Quarterman, 550 U. S. 233, 267 (2007)
(Roberts, C.J., dissenting). Whether Lockett should be
overruled may be considered in due course, but in the
interim it and its progeny should be confined to their
present scope and not expanded.
As for Skipper, both state and federal courts have
continued to permit trial courts to exercise discretion to
exclude marginally probative or unreliable evidence
under applicable rules, subject to the due process
limitation of Chambers v. Mississippi, 410 U. S. 284,
302 (1973). See People v. Smithey, 20 Cal. 4th 936, 995996, 978 P. 2d 1171, 1208-1209 (1999); State v. Davis,
175 Wash. 2d 287, 320-321, 290 P. 3d 43, 57-58 (2012);
United States v. Purkey, 428 F. 3d 738, 756-757 (CA8

26

2005); United States v. Fell, 531 F. 3d 197, 219-220
(CA2 2008).
Skipper and Eddings were not really evidence cases
in the traditional sense of the word. They were actually
cases about what factors come under Lockett’s broad
umbrella of the defendant’s character and record. In
Eddings it was the defendant’s youth and family
history. See 455 U. S., at 112-113. In Skipper it was
post-crime good behavior in jail pending trial. See 476
U. S., at 4-5. The question of what factors must be
considered and what evidence is admissible to support
those factors are analytically distinct. A case that is
really about the former should not be read to make a
constitutional ruling on the latter, even if it uses
somewhat imprecise language that could be read that
way in isolation.
Section 3593(c)’s Rule 403-like standard is constitutional. The District Court applied it within its discretion for the reasons briefed by the Government. There
is no reversible error in the exclusion of the marginally
relevant evidence at issue.
CONCLUSION
The decision of the Court of Appeals reversing the
judgment of the District Court should be reversed.
June, 2021
Respectfully submitted,
KENT S. SCHEIDEGGER
Attorney for Amicus Curiae
Criminal Justice Legal Foundation

